                                                               UNITED STATES DEPARTMENT OF COMMERCE
                                                               Office of Inspector General
                                                               Washington, D.C. 20230




February 5, 2014

MEMORANDUM FOR:               Anthony P. Scardino
                              Chief Financial Officer
                              u.s"ffJ_"[;f;;rk Office 

FROM:                      ~ Ann C. Eilers
                         !/   Principal Assistant Inspector General for Audit and Evaluation

SUBJECT:                      FY 2014 Financial Statements Audit of USPTO

KPMG LLP will soon begin its audit of USPTO's FY 2014 financial statements. The audit will be
conducted in accordance with generally accepted auditing standards, Government Auditing
Standards, and Office of Management and Budget (OMB) requirements.

The objective of the audit is to determine whether the financial statements are presented fairly,
in all material respects, in accordance with generally accepted accounting principles. As part of
the audit, KPMG will also consider USPTO's internal controls over financial reporting and test
compliance with certain provisions of laws, regulations, and contracts that could have a direct
and material effect on the financial statements.

My office will oversee the progress of the audit in accordance with U.S. Government
Accountability Office guidelines and ensure that KPMG performs the audit in accordance with
professional standards, OMB requirements, and the terms of the contract.

We will contact the audit liaison to schedule an entrance conference. If you have any questions,
please call me at (202) 482-2754, or Andrew Katsaros, Assistant Inspector General for Audit, at
(202) 482-7859.
